RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20HollyFrontier Cheyenne Refining, LLC, HollyFrontier Refining &
Marketing, LLC, HollyFrontier Woods Cross Refining, LLC, & Wynnewood
Refining Co., LLC,
Petitioners,
v.
Renewable Fuels Association, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Ryan C. Morris, certify that
the Petition for a Writ of Certiorari in the foregoing case contains 8,873 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 4, 2020.
Isi Rvan C. Morris
RYAN C. MORRIS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

